App. 1
Note: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
LIBBY A. DEMERY,
Petitioner
v.
DEPARTMENT OF THE ARMY,
Respondent
2019-2282
Petition for review of the Merit Systems Protec­
tion Board in No. PH-1221-18-0105-W-1.
Decided: April 9, 2020
Libby A. Demery, Clinton, MD, pro se.
Daniel S. Herzfeld, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, for respondent. Also represented
by Joseph H. Hunt, Allison Kidd-Miller, Robert
Edward Kirschman, Jr.

Before Chen, Schall, and Hughes, Circuit Judges.
Per Curiam.

App. 2
Libby Demery seeks review of a decision of the
Merit Systems Protection Board (Board) denying Ms.
Demery’s request for corrective action under the
Whistleblower Protection Act (WPA) as amended by
the Whistleblower Protection Enhancement Act (WPEA).
The Board concluded that Ms. Demery failed to prove
she made any protected disclosure that was a contrib­
uting factor in her non-selection for a position vacancy.
We affirm.

Background
On October 26, 2010, Ms. Demery interviewed
with a panel of individuals for a Management Analyst
position in the National Guard Bureau. The panel’s
leader, Mr. Tony Denham, recommended Ms. Demery
as the “selectee” to the Civilian Personnel Advisory
Center (CPAC or Agency). CPAC had the authority to
then make a tentative or final job offer to Ms. Demery.
On November 19, 2010, in response to an email from
Ms. Demery, Mr. Denham informed Ms. Demery that
CPAC would be responsible for making the hiring de­
cision and was trying to make sure the right candidate
was selected. AppxlOG.1 That same day, Ms. Demery
called Mr. Denham. During that call, Mr. Denham in­
formed Ms. Demery that CPAC was considering an­
other candidate—a candidate from the Department of
Defense’s Priority Placement Program (PPP). The PPP
gives priority to displaced workers who have been
1 The appendix submitted by the Department of the Army
will be referred to with the prefix “Appx.”

App. 3
adversely affected by certain employment actions, in­
cluding, among others, reductions in force. Depart­
ment of Defense Instruction 1400.25, Vol. 1800, DoD
Civilian Personnel Management System: DoD Prior­
ity Placement Program (PPP) (December 13, 2019),
https://www.esd.whs.mil/Portals/54/Documents/DD/
issuances/140025/1400.25-V1800.pdf?ver=2019-03-01100208-893. Ms. Demery responded by telling Mr.
Denham that hiring someone from the PPP did not
“seem quite right” given that she had already been in­
terviewed. Board Hearing Tr. 109:4-9.
On November 23, 2010, unbeknownst to Ms. Dem­
ery, CPAC selected Mr. John Woods, a PPP candidate,
for the Management Analyst position and sent him a
tentative job offer, which Mr. Woods accepted the next
day. Appx61-62. On December 8,2010, CPAC extended
a firm job offer to Mr. Woods, which he accepted later
that day. Id. at 59.
Following up on their November 19 phone call, Ms.
Demery emailed Mr. Denham on December 1, 2010. In
that email, Ms. Demery described the limitations of the
PPP and suggested that using that process after inter­
viewing Ms. Demery could not “be justified.” Id. at 8788.
On January 9, 2017, Ms. Demery filed a complaint
with the Office of Special Counsel (OSC) claiming that
the Agency hired Mr. Woods instead of her for the
Management Analyst position in retaliation for her
disclosures (November 19 phone call and December 1
email). Id. at 91-105. OSC initiated an inquiry into

App. 4
her complaint. On October 26, 2017, OSC notified Ms.
Demery that it was terminating its inquiry into her
allegations and advised her that she could file an indi­
vidual right of action appeal with the Board. Id. at 89.
Ms. Demery appealed to the Board.
On June 12, 2018, the administrative judge held a
hearing where three witnesses testified: Mr. Denham,
Ms. Demery, and Ms. Lydia Langley, the Supervisory
Human Resources Specialist at CPAC. Id. at 4, 70. The
administrative judge determined that the November
19 phone call did not constitute a protected disclosure,
but that the December 1 email did. Id. at 12-13. How­
ever, the Board found two reasons for why Ms. Demery
failed to meet her burden of proof that the December 1
email was a contributing factor to her non-selection: (1)
the December 1 email occurred after CPAC’s personnel
decision to hire Mr. Woods, and (2) the email was never
forwarded or otherwise communicated to CPAC. Id. at
13-14.
On June 21, 2019, the administrative judge’s ini­
tial decision became the final decision of the Board. Ms.
Demery timely appealed to this court. We have juris­
diction pursuant to 28 U.S.C. § 1295(a)(9).
Discussion
Our standard of review is limited and requires
this court to affirm a decision of the Board unless it is
“(1) arbitrary, capricious, an abuse of discretion, or oth­
erwise not in accordance with law; (2) obtained without
procedures required by law, rule, or regulation having

App. 5
been followed; or (3) unsupported by substantial evi­
dence.” 5 U.S.C. § 7703(c). Substantial evidence is “such
relevant evidence” that “a reasonable mind might ac­
cept as adequate to support a conclusion.” McGuffin u.
Soc. Sec. Admin., 942 F.3d 1099,1107 (Fed. Cir. 2019).
The WPA prohibits an agency from taking a per­
sonnel action because of a whistleblowing “disclosure”
or activity. 5 U.S.C. § 2302(b)(8)-(9). An employee who
believes he has been subjected to illegal retaliation
must prove by a preponderance of the evidence that he
made a protected disclosure that contributed to the
agency’s action against him. See Whitmore v. Dep’t of
Labor, 680 F.3d 1353,1367 (Fed. Cir. 2012). “If the em­
ployee establishes this prima facie case of reprisal for
whistleblowing, the burden of persuasion shifts to the
agency to show by clear and convincing evidence that
it would have taken ‘the same personnel action in the
absence of such disclosure.’” Id. at 1364 (quoting 5
U.S.C. § 1221(e)).
A. November 19, 2010 phone call
The Board found that the November 19 phone call
did not constitute a protected disclosure under the
WPA as amended by the WPEA2 because Ms. Demery’s
2 The WPEA clarified the definition of a disclosure under
the WPA. Under the WPEA, a disclosure will not be excluded
from protection for any of these following reasons—simply be­
cause it was made to a wrongdoer, was made for personal motives,
revealed information that was already known, was not made in
writing, was made while off-duty, or was not made within a cer­
tain amount of time after the events described in the disclosure.

App. 6
statements were far too vague to constitute a disclo­
sure of a violation of law or anything else. Appxl2. We
agree.
Under the WPA,3 to establish a protected disclo­
sure has been made, a person must establish that: (1)
he had a reasonable belief that his disclosure was pro­
tected under the WPA; and (2) he identified a “specific
law, rule, or regulation that was violated.” Langer v.
Dep’t of Treasury, 265 F.3d 1259, 1266 (Fed. Cir. 2001)
(internal quotations omitted). Vague, conclusory, or fa­
cially insufficient allegations of government wrong­
doing fail to constitute protected disclosures under the
WPA. Johnston v. Merit Sys. Prot. Bd., 518 F.3d 905,
910 (Fed. Cir. 2008); see also Herman v. Dep’t of Justice,
193 F.3d 1375, 1380-81 (Fed. Cir. 1999) (holding that
the Board had no jurisdiction under the WPA for the
disclosure of trivial violations of agency rules).
Substantial evidence supports the Board’s finding
that Ms. Demery’s November 19,2010 phone conversa­
tion lacks the specificity required to constitute a dis­
closure. Ms. Demery testified that she told Mr. Denham
in that call that she thought CPAC’s consideration of
another candidate “was not correct” and “that this tim­
ing doesn’t seem quite right.” Board Hearing Tr. 109:49, 15-20. Although Ms. Demery indicated her general
dissatisfaction with the process, she did not allege any
See Whistleblower Protection Enhancement Act of 2012, Pub. L.
No. 112-199, 126 Stat. 1465 (2012).
3 This standard is the same under the WPEA. See Mithen v.
Dep’t of Veterans Affairs, 119 M.S.P.R. 215, n. 9 (2013).

App. 7
violation of a rule, regulation, or law. The Board rea­
sonably found that Ms. Demery’s statements in the
November 19 phone call were too vague and conclusory
and thus do not qualify as a protected disclosure under
the WPA as amended by the WPEA.
B.

December 1, 2010 email

The Board found that the December 1 email was a
protected disclosure but that Ms. Demery did not prove
by a preponderance of the evidence that this disclosure
was a contributing factor to her non-selection. Appxl3.
We agree.
“An employee can demonstrate that a disclosure
was a contributing factor by adducing evidence that
the deciding official was aware of the disclosure and
that the length of time between the disclosure and the
adverse action was such that a reasonable person
could conclude that the disclosure contributed to the
agency’s decision to take action against him.” Suggs u.
Dep’t of Veterans Affairs, 415 F. App’x 240, 242 (Fed.
Cir. 2011) (citing 5 U.S.C. § 1221(e)(1)). Here, the Board
found “there is no evidence anyone in CPAC (the de­
ciding entity) had knowledge of the appellant’s disclo­
sure,” crediting Ms. Langley’s and Mr. Denham’s
testimony. Appxl4.
Ms. Demery argues that she demonstrated during
the hearing that Mr. Denham and Ms. Langley lied
during their testimony. Appellant’s Br. at 10-12. How­
ever, there is no evidence to support this contention.
Rather, Ms. Demery seems to disagree with how the

App. 8
Board assessed the credibility of the witnesses. The
Board’s assessment of demeanor, contradiction, con­
sistency, or other credibility determinations is given
great deference on appeal. Haebe u. Dep’t of Justice,
288 F.3d 1288, 1299 (Fed. Cir. 2002) (“[GJreat defer­
ence must be granted to the trier of fact who has had
the opportunity to observe the demeanor of the wit­
nesses, whereas the reviewing body looks only at cold
records.”) (internal citation and quotations omitted);
King v. Dep’t of Health & Human Servs., 133 F.3d 1450,
1453 (Fed. Cir. 1998) (stating that the “evaluation of
witness credibility is within the discretion of the Board
and that, in general, such evaluations are virtually unreviewable on appeal”). Ms. Langley testified that she
was unaware of Ms. Demery’s December 1 email. Mr.
Denham also testified that he did not forward Ms.
Demery’s December 1 email to Ms. Langley or anyone
else. Additionally, the request for personnel action
(RPA) tracker, which tracked the candidate selection of
the Management Analyst position, does not contradict
the testimony by Ms. Langley or Mr. Denham. We
therefore do not disturb the Board’s credibility-based
determination that CPAC had not been informed of the
December 1 email and that Mr. Denham did not for­
ward or discuss the December 1 email with anyone.
The Board also found that CPAC’s personnel deci­
sion to select and hire Mr. Woods occurred before De­
cember 1. Substantial evidence supports this finding.
Mr. Woods was first sent a tentative job offer on No­
vember 23, 2010. Although Mr. Woods’s firm offer was
not sent until December 8, 2010, he was still selected

App. 9
for the Management Analyst position prior to Ms.
Demery’s December 1 email. Therefore, the Board did
not err in determining that the December 1 email was
not a contributing factor to Ms. Demery’s non-selection.
C.

Denial of Additional Witnesses

Ms. Demery asserts that the Board erred in deny­
ing her the ability to call two additional witnesses. The
Board determined it was unnecessary to hear from the
two additional witnesses based on the testimony of Ms.
Langley and Mr. Denham. Appx71, 73. The Board has
broad discretion to exclude witnesses if their testimony
would be irrelevant, immaterial, or repetitious. See 5
C.F.R. § 1201.41(b)(10); Curtin v. Office ofPers. Mgmt.,
846 F.2d 1373, 1378 (Fed. Cir. 1988); see also Davis v.
Dep’t of Army, 710 F. App’x 875, 880 (Fed. Cir. 2017)
(finding that the Board did not abuse its discretion
where it excluded witnesses).
Our court will not overturn the Board’s decision to
exclude witnesses unless the exclusion is a clear and
harmful abuse of discretion. See Curtin, 846 F.2d at
1378 (“Procedural matters relative to discovery and ev­
identiary issues fall within the sound discretion of the
board and its officials.”). In Ms. Demery’s appeal, the
Board determined that the testimony of the other two
witnesses would not provide any additional relevant
information because both of those witnesses worked
under Ms. Langley and the Board had already heard
testimony from Ms. Langley. Appx71. Ms. Demery did
not have any interactions with the two witnesses and

App. 10
the RPA tracker contained in the record detailed the
entries of the two witnesses with respect to the Man­
agement Analyst position candidate selection. Appx90.
We find under these circumstances the Board did not
abuse its discretion in excluding the testimony of the
two witnesses.
D.

Perceived Whistleblower Claim

We also reject Ms. Demery’s contention that CPAC
perceived her to be a whistleblower. The Board found
that Ms. Demery did not exhaust an allegation for per­
ceived whistleblowing before OSC. Appx8 n.7. The
Board further found that, even if she had, there was no
evidence that the Agency perceived Ms. Demery as a
whistleblower. Id. We again agree with the Board.
The perceived whistleblower doctrine prevents a
supervisor from taking retaliatory action against an
employee, even if the employee’s disclosure is later
found unprotected, so long as the retaliation was taken
in response to the disclosure. Montgomery v. Merit Sys.
Prot. Bd., 382 F. App’x 942, 947 (Fed. Cir. 2010). Thus,
even if Ms. Demery did not actually engage in a pro­
tected activity, she could still have a claim if the agency
officials nevertheless perceived her as having engaged
in protected activity.
For an employee to establish that the Board has
jurisdiction over an individual right of action appeal
from OSC regarding a perceived whistleblower claim,
he must, in addition to showing that he exhausted
remedies before OSC, make a nonfrivolous allegation

App. 11
that the agency perceived him as a whistleblower and
that his perception as a whistleblower was a contrib­
uting factor to his non-selection. 5 U.S.C. § 1214(a)(3);
King v. Dep’t ofArmy, 116 M.S.P.R. 689,696 (2011). Be­
low, the Board found that Ms. Demery failed to raise
this claim to OSC. We review the Board’s legal conclu­
sion that Ms. Demery failed to exhaust her adminis­
trative remedies de novo.
Ms. Demery did not allege to OSC any perceived
whistleblower theory separate from her whistleblower
theory. Rather, her contention on appeal essentially is
that raising a whistleblower theory also includes a
perceived whistleblower theory. We disagree and see
no error in the Board’s ruling that Ms. Demery failed
to exhaust her perceived whistleblower claim before
OSC. Ward v. Merit Sys. Prot. Bd., 981 F.2d 521, 526
(Fed. Cir. 1992) (“[T]he employee must inform [OSC] of
the precise ground of his charge of whistleblowing.”).
In any event, the Board also found no evidence
that Ms. Demery was perceived as a whistleblower. Ms.
Langley at CPAC was unaware of Ms. Demery’s disclo­
sures and Mr. Denham did not forward those disclo­
sures to anyone else at CPAC and therefore it is
impossible that CPAC perceived Ms. Demery as a
whistleblower and retaliated against her. Thus, the
Board’s conclusion that Ms. Demery was not perceived
as a whistleblower is supported by substantial evi­
dence.

App. 12
F. Additional Allegations
To the extent Ms. Demery is requesting review of
her other allegations, such as her Equal Employment
Opportunity complaint containing an age discrimina­
tion allegation, we lack jurisdiction over these allega­
tions because they are outside the scope of the Board’s
final decision. “Section 1295(a)(9) of Title 28 circum­
scribes our jurisdiction to review the Board’s decisions,
limiting it to jurisdiction over an appeal from a final
order or final decision of the Board.” Haines v. Merit
Sys. Prot. Bd., 44 F.3d 998, 999 (Fed. Cir. 1995) (inter­
nal quotations omitted). For example, we do not have
jurisdiction over Ms. Demery’s claim regarding Ms.
Stoucker because Ms. Demery failed to exhaust this
claim in front of OSC. For all of Ms. Demery’s addi­
tional complaints and allegations we do not have juris­
diction because Ms. Demery failed to exhaust these
allegations in front of OSC, she did not appeal or failed
to timely appeal decisions from OSC to the Board, or
she failed to timely appeal from the Board.
We have considered Ms. Demery’s remaining argu­
ments and find them unpersuasive.
Conclusion
For the foregoing reasons, the Board’s decision is
AFFIRMED
Costs
No costs.

App. 13
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
NORTHEASTERN REGIONAL OFFICE
LIBBY A. DEMERY,
Appellant,
v.

DOCKET NUMBER
PH-1221-18-0105-W-l
DATE: July 27, 2018

DEPARTMENT OF THE
ARMY,
Agency.
Libbv A. Demerv. Clinton, Maryland, pro se.
Eugene R. Ingrao. Sr.. Arlington, Virginia, for the
agency.
BEFORE
Mark Syska
Administrative Judge
INITIAL DECISION
The appellant filed this individual right of action
(IRA) appeal under the Whistleblower Protection Act
(WPA)/Whistleblower Protection Enhancement Act
(WPEA). See Appeal File (AF), Tab 1. The Board has
jurisdiction under 5 U.S.C. §§ 1221, 2302; 5 C.F.R.
§§ 1201.3(b)(2); 1209.1 et seq. For the reasons that
follow, the appellant’s request for corrective action is
DENIED.

App. 14
Background
This case is the continuation of the appellant’s on­
going litigation against the agency for its failure to
select1 her for a GS-0343-11 Management Analyst po­
sition in the National Guard Bureau, Announcement
# NEHT10457276D, in Fall of 2010. The appellant (a
30% disabled veteran) challenged her non-selection as
a violation of her veteran’s preference rights under
the Veterans Employment Opportunities Act of 1998
(VEOA) before the Department of Labor, Office of the
Secretary for Veterans Employment and Training
(DOLVETS). See AF, Tab 1, Attachments. The resulting
Board appeal was dismissed as untimely on February
4, 2013, with the administrative judge concluding that
the delay was due to the appellant’s own negligence in
failing to follow DOLVETS’ express written instruc­
tions (on how to appeal) and instead electing to file an
EEO complaint and a FOIA request. See MSPB Docket
No. DC-3330-13-0063-1-1. The appellant’s EEO com­
plaints were also unsuccessful. See AF, Tab 1, Attach­
ments. Next she challenged the non-selection in a civil
action in U.S. District Court, raising the same veter­
ans’ preference and EEO discrimination claims. The
district court judge dismissed all her claims on Sep­
tember 4, 2014. See AF, Tab 15 at 7-19.
Undaunted, the appellant filed a whistleblower
complaint with the Office of Special Counsel (OSC),
1 The appellant maintains that she was “selected” by the se­
lecting official, but the Civilian Personnel Advisory Center failed
to perform the ministerial task of appointing her.

App. 15
and her close-out letter was issued on October 26,
2017. See AF, Tab 1, Attachments. This appeal followed.
The overwhelming bulk of the appellant’s materials
were devoted to showing that the agency made several
grievous errors in failing to select/appoint the appel­
lant, including failing to follow pass-over procedures,
violating designated examining unit (deu) require­
ments, and failing to follow the rule of three. See, e.g.,
AF, Tab 1, Tab 8, Tab 19, Tab 33, Tab 42. The actual
whistleblower claim was difficult to discern. Ulti­
mately, the case came to a focus on the appellant’s in­
teractions with the agency official leading the
interview panel. The appellant ultimately alleged the
following account in support of her IRA.
The appellant applied for the disputed position,
and she was interviewed by a panel on October 26,
2010. The appellant alleges that Tony Denham (who
led the panel) called the appellant to tell her she was
the panel’s selection and to make a tentative offer of
the position. The appellant further alleges that she ac­
cepted the offer immediately. The appellant then as­
serts that the panel forwarded the appellant’s name
and her acceptance of the offer to the Civilian Person­
nel Advisory Center (CPAC)2 on November 3, 2010.
Having heard nothing for two weeks, the appellant tes­
tified that she contacted Denham again by phone and
email on November 19, 2010. She further claims that
Denham told her that CPAC was considering an indi­
vidual from the Priority Placement Program (PPP) for
2 This acronym has varied in some of the materials - some­
times appearing as CPOC or CPAS.

App. 16
the position. The appellant asserts that she disclosed
that any use of the PPP at this point in the hiring pro­
cess would be illegal, and she further alleges that
Denham forwarded her disclosure to CPAC. Because
Denham stated he knew nothing about the details of
the hiring regulations, the appellant sent him an email
outlining her disclosure in greater detail. The appel­
lant alleges that Denham provided this disclosure to
CPAC as well.
Despite numerous attempts to contact CPAC by
email, the appellant was unsuccessful in getting any
further information about her selection. Unbeknownst
to the appellant, a PPP candidate, John Woods (also a
disabled veteran), received a tentative job offer (TJO)
for the position on November 23,2010, and he accepted
the TJO on November 24, 2010. See AF, Tab 56 at 8-9.
The agency followed up with a Final Job Offer (FJO)
on December 8,2010, which Woods accepted on Decem­
ber 9, 2010. See AF, Tab 48 at 26.
The appellant testified that she was never for­
mally notified that she was not selected for the position
and that another individual had been selected. How­
ever, in April 2011, she received notice that her name
had been forwarded to another manager for an identi­
cal position. At this point, the appellant realized some­
thing was amiss and began her legal process.3
The parties submitted prehearing submissions,
and I held a prehearing conference. See AF, Tab 47, Tab
3 The appellant is no longer pursuing a claim about a subse­
quent hiring in 2011 (Stoucker).

App. 17
48, Tab 49, Tab 56. I issued a prehearing conference
summary to which the appellant objected, and I denied
her objection.4 See AF, Tab 52, Tab 53.5 I held the
appellant’s requested hearing, and three witnesses
testified: (1) Mr. Albert “Tony” Denham, Senior Man­
agement Analyst, and the chair of the panel that inter­
viewed the appellant; (2) Ms. Lydia Carmen Langley,
Supervisory Human Resources Specialist; and (3) Ms.
Libby Demery, the appellant. See AF, Tab 57 (Hearing
CD).
Legal Standards
Because this appeal was filed after the effective
date (December 27, 2012) of the WPEA, I have consid­
ered the WPA as amended by the WPEA in addressing
this appeal. The basic legal standard is essentially the
same. Cf. Mithen v. Department of Veterans Affairs, 119
M.S.P.R. 215, f 13 n. 9 (2013).
The WPA prohibits an agency from taking a per­
sonnel action against an employee for disclosing in­
formation that the employee reasonably believes
evidences a violation of law, rule, or regulation; gross
4 Among other things, the appellant wished to add the
agency’s subsequent retaliation in connection with her VEOA,
EEO, and U.S. District Court actions to this action. This appeared
to be simply an attempt to re-litigate these cases. Moreover, the
agency’s actions in litigating these earlier proceedings do not ap­
pear to constitute “personnel actions,” as defined in 5 U.S.C.
§ 2302.
5 At this point, the appellant filed a motion for an interlocu­
tory appeal, which I also denied. See AF, Tab 54, Tab 55.

App. 18
mismanagement; a gross waste of funds; an abuse of
authority; or a substantial and specific danger to pub­
lic health or safety. See Chambers v. Department of the
Interior, 602 F.3d 1370,1375-76 (Fed. Cir. 2010) (citing
5 U.S.C. § 2302(b)(8)); Mudd v. Department of Veterans
Affairs, 120 M.S.P.R. 365, f 5 (2013); see also Linder v.
Department of Justice, 122 M.S.P.R. 14, % 11 (2014)
(the employee need not “label” the disclosure correctly).
The disclosure must be specific and detailed, not just
vague allegations of wrongdoing. See Scoggins u. De­
partment of the Army, 123 M.S.P.R. 592, 'll 6 (2016).
To be entitled to a merits hearing in an IRA appeal,
the appellant must set forth nonfrivolous jurisdic­
tional allegations that she engaged in whistleblowing
activity by making a protected disclosure (or taking
another protected action) and that the disclosure was
a contributing factor in the agency’s decision to take an
action against her. See Kerrigan v. Department of La­
bor, 833 F.3d 1349,1354 (Fed. Cir. 2015); see also Yunus
v. Department of Veterans Affairs, 242 F.3d 1367,13711372 (Fed. Cir. 2001); Mason v. Department of Home­
land Security, 116 M.S.P.R. 135, % 7 (2011). Moreover,
in an IRA action, the appellant must also show that
she exhausted her remedies with OSC to establish ju­
risdiction and be entitled to a hearing. See Yunus, 242
F.3d at 1371 \ Aquino v. Department of Homeland Secu­
rity, 121 M.S.P.R. 35, 'll 9 (2014); Herman v. Department
of Justice, 115 M.S.P.R. 386, f 6 (2011); 5 C.F.R.
§ 1209.2 (b).
An appellant has only exhausted her administra­
tive remedies with OSC after OSC has sent her a letter

App. 19
stating that it was terminating its investigation into
her allegations or 120 days have passed since the ap­
pellant first sought OSC action. See Simnitt v. Depart­
ment of Veterans Affairs, 113 M.S.P.R. 313, % 8 (2010).
To fully satisfy the exhaustion requirement of 5 U.S.C.
§ 1214(a)(3) in an IRA appeal, an appellant must in­
form OSC of the precise ground of her charge of
whistleblowing (or other protected activity), giving
OSC a sufficient basis to pursue an investigation
which might lead to corrective action. See Ward v.
Merit Systems Protection Board, 981 F.2d 521, 526
(Fed. Cir. 1992); see also McDonnell v. Department of
Agriculture, 108 M.S.RR. 443, f 8 (2008) (the Board
may consider only those charges that the appellant as­
serted before OSC, and it may not consider any subse­
quent recharacterization of those charges put forth by
the appellant in his appeal to the Board); see generally
Miller u. Federal Deposit Insurance Corporation, 122
M.S.P.B. 3,f6 (2014), aff’d, 626 F. App’x 261 (Fed. Cir.
2015) (an appellant may add some further detail to his
claims before the Board, but he may not add new
claims).
A very broad range of personnel actions fall within
the Board’s jurisdiction under the WPA, including a
significant change in the appellant’s duties. See Herman,
115 M.S.P.R. 386, % 7; see also Savage v. Department of
the Army, 122 M.S.P.R. 612, % 23 (2015) (the creation
of a hostile work environment is a personnel action un­
der the WPA); Ingram v. Department of the Army, 116
M.S.P.R. 525, f 4 (2011) (the terms significant “change
in duties” or “working conditions” should be construed

App. 20
broadly); see generally 5 U.S.C. § 2302(a)(2)(A). The em­
ployee must also prove the disclosure was a contrib­
uting factor to the personnel action; a “contributing
factor” means the disclosure affected the agency’s deci­
sion to threaten, propose, take, or not take the person­
nel action regarding the appellant. See Mudd, 120
M.S.P.R. 365, f 10.
An employee can show that her disclosure (or
other protected action) was a contributing factor to the
personnel action via the knowledge/timing test - by
presenting evidence that the official taking the person­
nel action was aware of the disclosure, and the official
took the action within a short enough period after the
disclosure for a reasonable person to conclude that the
disclosure was a contributing factor to the personnel
action. See Gonzalez v. Department of Transportation,
109 M.S.P.R. 250, ‘H 19 (2008); see also Rumsey v. De­
partment of Justice, 120 M.S.P.R. 259, % 21 (2013) (a
disclosure made 1 to 2 years before an adverse action
can suffice under the knowledge-timing test). But tim­
ing alone does not suffice - the knowledge component
is required and can be determinative to the question
of the Board’s jurisdiction. See Kerrigan, 833 F.3d at
1354. An employee can also prove the disclosure was a
contributing factor by showing an official had “con­
structive knowledge” of the disclosure - that another
official with knowledge of the disclosure influenced the
official who actually took the retaliatory action - the
“cat’s paw” theory. See Bradley v. Department of Home­
land Security, 123 M.S.P.R. 547, % 15 (2016); Aquino,
121 M.S.P.R. 35, f 19

App. 21
At a hearing, the appellant must prove her IRA
claim by preponderant evidence. See Scoggins, 123
M.S.P.R. 532, f 5. If the appellant proves that she
made a disclosure and the disclosure was a contrib­
uting factor in an adverse personnel action, the burden
shifts to the agency to prove by clear and convincing
evidence that it would have taken the same action in
the absence of the disclosure. See Whitmore v. Depart­
ment of Labor, 680 F.3d 1353, 1364 (Fed. Cir. 2012).
Clear and convincing is a high evidentiary standard the evidence only clearly and convincingly supports a
conclusion when it does so in the aggregate considering
all the pertinent evidence in the record, including the
evidence that detracts from the conclusion. Id. at 1368.
Relevant factors under this legal test include: (1) The
strength of the evidence in support of the agency’s ac­
tion; (2) the existence and strength of any motive to
retaliate on the part of the agency officials involved in
the decision; and (3) any evidence the agency takes
similar actions in similar circumstances against non­
whistleblowers (the Carr factors). Id.; Mithen, 119
M.S.RR. 215, f 17. The agency does not have an affirm­
ative burden to produce evidence as to each Carr fac­
tor, nor must each factor weigh in the agency’s favor.
See Miller v. Department of Justice, 842 F.3d 1252,
1257 (Fed. Cir. 2016).
As to the witnesses, I had the opportunity to ob­
serve each witness, and I carefully considered his/her

App. 22
demeanor. See Hamilton v. Department of Veterans
Affairs, 115 M.S.P.R. 673, f 18 (2011).6
Analysis & Fact-Finding
The appellant ultimately fails to establish her
prima facie case by a preponderance of the evidence.
Her purported disclosure of November 2010 was far too
vague to constitute a disclosure regarding a violation
of law. The December 1, 2010 disclosure is more sub­
stantive, and it can be fairly read as a disclosure of a
potential violation of law. However, the December dis­
closure came after the agency offered the position to
Wood, so it could not have been a contributing factor
to the agency’s selection. Further, the evidence estab­
lishes that the December statement was never for­
warded or discussed with the hiring authorities
(CPAC). Thus, corrective action must be denied.7
6 To resolve any credibility issues, I utilized a Hillen analy­
sis. An administrative judge must identify the factual questions
in dispute, summarize the evidence on each disputed question,
state which version he believes, and explain in detail why he
found the chosen version more credible, considering such factors
as: (1) The witness’s opportunity and capacity to observe the event
or act in question; (2) the witness’s character; (3) any prior incon­
sistent statement by the witness; (4) a witness’s bias, or lack of
bias; (5) the contradiction of the witness’s version of events by
other evidence or its consistency with other evidence; (6) the
inherent improbability of the witness’s version of events; and
(7) the witness’s demeanor. Hillen v. Department of the Army, 35
M.S.P.R. 453, 458 (1987).
7 The appellant belatedly attempted to raise a perceived
whistleblower claim, but she never exhausted this claim before
OSC. See AF, Tab 26 at 31-55. Thus, I cannot consider this claim.

App. 23
The Selection
The parties agree that the appellant interviewed
for the position on October 26, 2010, and that Denham
forwarded the appellant’s name to CPAC as the panel’s
“selectee.” Hearing CD; see also AF, Tab 26 at 18, Tab
27 at 5. The parties also agree that CPAC never con­
tacted the appellant to extend a TJO/FJO or notify her
whether she had been selected or not selected. Hearing
CD. After that, the accounts diverge significantly.
The appellant testified that Denham called her on
November 3, 2010, and he extended her a TJO, which
she immediately accepted. Hearing CD. The appellant
further testified that he told her to “stop looking for a
position” and wait for the official notification from
CPAC. Id. She further asserts that Denham forwarded
the information about his selection and the appellant’s
acceptance to CPAC. Id. The appellant also testified
that she could not have called Denham on November
3,2010 because she did not have his telephone number.
Id. Thus, the appellant’s first contention is that she
was “selected” for the position as of November 3, 2010
- she had been offered the position and accepted the
offer. Id. She also points to J. Dixon’s8 RPA (Request
for Personnel Action) tracking system entry for the va­
cancy on November 10, 2010: “selection (Libby Demery) OK to proceed to extend TJO. Will need DD-214
See Ward, 981 F.2d at 526. Even if the appellant had exhausted
this claim, however, there was no evidence that the agency per­
ceived the appellant as a whistleblower.
8 Dixon is a human resources specialist.

App. 24
and VA letter to verify eligibility prior to FJO.” See AF,
Tab 48 at 26.
Denham had some problems recalling events,
given the significant amount of time that has passed,9
but he testified effectively based upon his limited rec­
ollection, the documentation, his customary practices,
and agency procedures. Hearing CD. Notably, he as­
serted that he did not call the appellant on November
3, 2010. Id. He emphasized that such a call would have
been pointless because only CPAC could make a TJO
or FJO - he simply presented the panel’s preference to
CPAC, but CPAC made the actual hiring decisions. Id.
Thus, he could not “offer” the appellant anything. Id.
He also stated that his making such a call would be a
significant departure from his practices - both past
and present. Id. If the appellant called him, he may
have said she was the panel’s choice, but he would have
emphasized the decision was CPAC’s, and he would
never have told her to stop looking for other positions.
Id.
Langley fully corroborated Denham’s understand­
ing of the hiring process - that CPAC was the entity
empowered to make both TJOs and FJOs. Hearing CD.
Denham and Langley also agreed that sometimes a
panel’s preference got a TJO/FJO from CPAC, and
sometimes they did not. Id. Denham’s account is also
supported by his email to the appellant on November
19, 2010, which emphasized that “CPOC” did the hir­
ing, as he only made a “recommendation.” See AF, Tab
9 The agency did not raise a laches defense.

App. 25
26 at 61. The RPA tracking system entries also suggest
this is the case. Indeed, the appellant herself pointed
to Dixon’s RPA tracking system entry suggesting that
CPAC was free to make a TJO and FJO to the appel­
lant. See AF, Tab 48 at 26; Hearing CD. Langley testi­
fied that, while Dixon had cleared the agency to make
a TJO/FJO to the appellant, the agency never did so
because they were required to fill the position with a
PPP individual (Woods). Hearing CD; see also AF, Tab
47 at 13. Indeed, R. Plummer10 made the following en­
try in the RPA tracking system on November 22, 2010:
“TJO will not be extended to Demery, there is a wellqualified PPP match. Notified PPP team to extend
TJO.” See AF, Tab 48 at 26. Further, the copy of
Denham’s recommendation of the appellant to CPAC
does not state that he made a TJO or that the appel­
lant had accepted such an offer. See AF, Tab 25 at 5.
I find Denham and Langley’s testimony, which was
consistent and corroborated by documentation, more
credible than the appellant’s testimony. I note the ap­
pellant had limited credibility, as she contradicted her­
self in both her written submissions and her testimony.
For example, the appellant’s own submissions suggest
that she was aware that Denham had no authority to
make an offer of employment (TJO or FJO). She re­
ferred to managers like Denham as having the author­
ity to make an “unofficial interim, tentative job offer,”
but the managers must also inform the selectee not
to give notice to their present employer or make any
10 Plummer is another human resources specialist.

App. 26
other changes based on this “unofficial TJO.” See AF,
Tab 26 at 17. Anything as vague as an “unofficial, in­
terim, tentative” offer, accompanied by a warning not
to take any action in reliance on this purported offer,
cannot create a reasonable belief that one has been ac­
tually selected/hired. As to the appellant’s assertion
that Denham called her because she did not have his
phone number, this statement is demonstrably false.
The appellant testified that she called Denham on the
November 19, 2010 with the phone number he pro­
vided in scheduling the interview. Hearing CD. Indeed,
Denham’s email of October 21, 2010, provides all his
contact information. See AF, Tab 26 at 60. Thus, the
appellant had Denham’s telephone number prior to
November 3, 2010.
The appellant also testified inconsistently on the
whole question of selection. At various times, she testi­
fied that the agency concealed her selection and that
she did not know she had been selected. Id. This seems
completely at odds with her thesis - that Denham se­
lected her and she accepted his offer. The appellant’s
testimony also varied as to the significance of the
agency’s failure to provide follow-up. On this point, she
testified that she had applied for many jobs, and when
she heard nothing she presumed they selected some­
one else. Hearing CD. The appellant also testified that
by late December 2010, she had assumed the agency
selected someone else here. Id.
I conclude that the appellant’s contentions that
she was (formally) selected for the position and enti­
tled to be appointed are baseless on this record. I find

App. 27
that the appellant called Denham on November 3,
2010, that Denham never extended a TJO, and that
she was never provided a TJO or FJO from CPAC for
the position.11
The Disclosure
The appellant’s first purported disclosure was pre­
sented to Denham on November 19, 2010, during a tel­
ephone call that followed up on an email. See Hearing
CD; see also AF, Tab 26 at 61. While the appellant had
alleged that she informed Denham that refusing to
hire her at this point in the process would violate the
law, her actual testimony was far more limited. The ap­
pellant testified that Denham had told her a PPP indi­
vidual was being considered for the position by CPAC,
and the appellant testified that she told Denham that
“did not seem right” or that “didn’t sound right.” Hear­
ing CD. The appellant further testified that this con­
versation led her to do extensive research, which
resulted in her December 1,2010 email to Denham. Id.
The appellant further testified that she believed that
Denham passed her disclosures on to CPAC. Id.

11 There is some bandying of semantics - the appellant was
“selected” by the panel to be recommended to CPAC, but that se­
lection had no official weight and effect. The appellant was not
“selected” by CPAC for a TJO and FJO, and that is the “selection”
of consequence. My finding on this issue also moots a good portion
of the appellant’s retaliation claims related to the subsequent lit­
igation - notably that the agency kept fraudulently concealing her
“selection.”

App. 28
The appellant’s November 19, 2010 statements to
Denham about the potential action “not seeming right”
or “not sounding right” are far too vague to constitute
a disclosure of a violation of law (or anything else).
See generally Lewis, 123 M.S.P.R. 255, 12; see, e.g.,
El v. Department of Commerce, 123 M.S.P.R. 76, M 7-8
(2015) (assertions of delays in reimbursing travel
claims only vaguely allege wrongdoing and do not con­
stitute nonfrivolous allegations of a violation of a law,
rule, or regulation); Graves v. Department of Veterans
Affairs, 123 M.S.P.R. 434, f 9 (2016) (conclusory alle­
gations of “gross mismanagement” and a “gross waste
of funds,” without supporting details, are too vague
to suffice); Lewis, 123 M.S.P.R. 255, H 12 (allegation
of “creating a hostile environment” is inadequate);
McCorcle v. Department of Agriculture, 98 M.S.P.R.
363, I*! 20-22,24 (2005) (other examples of statements
too vague to be disclosures include “abuse of authority,”
“incidents of harassment and discrimination, managerial irregularities,” “wrongdoing,” and “doctoring of
documents”). Further, the fact the appellant had to
research the various regulations after this conversa­
tion strongly suggests that she would not have
known of any potential violation of law on November
19, 2010.
The appellant’s next disclosure is her December 1,
2010 email to Denham, which she sent (in part) be­
cause she asserted that Denham said he knew nothing
about the hiring process. Hearing CD; see also AF,
Tab 8 at 24-25, Tab 26 at 62- 63. The document gener­
ally describes the appellant’s understanding of the

App. 29
limitations of the PPP process as applied through the
Automated Stopper and Referral System (ASAPRS)
and the requirement to maintain an audit trail, and it
generally asserts that she believed applying the PPP
process to the hiring after her interview “cannot be jus­
tified.” See AF, Tab 8 at 24-25. However, she appears to
condition this conclusion by stating “only the audit
trail report within HRO will indicate the action and
dates.” Id. at 25. She also suggested that her email
may have been intended for purely informational pur­
poses — “I hope this will shed some light on the process
and perhaps empowers you and your peers to assist in
the improvement of the system.” Id. at 25. These qual­
ifications make the message somewhat vague as to its
purpose. However, construing the message generously,
I find that it can be reasonably read as a disclosure of
a potential violation of law.
But the disclosure has a more fundamental flaw it was made after the agency offered the position to
Woods and after Woods accepted it. As a matter of law
and common sense, a protected disclosure cannot be a
contributing factor to a personnel action if the person­
nel action is initiated before the disclosure is made.
See Horton v. Department of the Navy, 66 F.3d 279,284
(Fed. Cir. 1995); see also Sherman v. Department of
Homeland Security, 122 M.S.P.R. 644, f 8 (2015).
In addition, Denham testified that he did not con­
strue the message as anything but the griping of an
unsuccessful applicant - a familiar phenomenon that
he had experienced (and ignored) many times. Hear­
ing CD. He also took umbrage at the appellant’s

App. 30
suggestion that he knew nothing about PPP and hiring
practices in general, and that he would seek guidance
on these topics from an applicant. Id. He also testified
that he never forwarded or discussed the appellant’s
email with CPAC or anyone else.12 Id. Indeed, he testi­
fied that he had never forwarded an email questioning
or complaining about the hiring process to CPAC once his role in the process was over, he trusted CPAC
to do what was required. Id. I note that Denham was
somewhat chastened by this experience. He testified
that, after being called to testify at this hearing, he
might be more likely to forward a future message (like
the appellant’s) to his supervisor, just to be safe. Id.
He emphasized, however, that did not happen this
time. Id.
Langley’s testimony fully corroborated Denham’s.
Langley testified that her office had never been for­
warded a message claiming that a given hiring action
may be illegal, and that, as supervisor, the employees
in the unit would undoubtedly bring such a matter to
her attention. Hearing CD. Thus, even if the appel­
lant’s disclosure had been timely (before Woods ac­
ceptance), her claim would fail because she could not
establish her disclosure was a contributing factor to
the agency action - there is no evidence anyone in
CPAC (the deciding entity) had knowledge of the ap­
pellant’s disclosure. See Kerrigan, 833 F.3d at 1354.

12 Indeed, the appellant asserts that Denham refused to even
provide her with the name of a contact person at CPAC. Hearing
CD.

App. 31
In light of these findings, my analysis of the appel­
lant’s IRA appeal ceases here. I need not address
whether the agency would have taken the same action
by clear and convincing evidence, utilizing the Carr
factors to assess the agency’s underlying action.13 I
do note parenthetically that the agency’s process was
sloppy. At the outset, Langley’s testimony suggests
the external vacancy announcement should never
have issued, given Woods “matched” the position on
September 7, 2010. Hearing CD; see also AF, Tab 26
at 79-80; Tab 56, Exhibit 2. Langley testified that
someone appears to have simply “missed” the match.
Id. Obviously this entire situation could have been
avoided, but for that mistake. In addition, the agency
only stoked the fires by failing to respond (or respond­
ing erroneously) to the appellant’s multiple email re­
quests about the status of her application.
DECISION
The appellant’s request for corrective action is DE­
NIED.
FOR THE BOARD:
Mark Syska
Administrative Judge

13 The appellant had spent the bulk of her efforts showing
the agency’s selection was in error and utterly unsupported by the
regulations. As noted by the agency, the appellant appeared to be
trying to use an IRA appeal to attack the 2010 selection on the
merits - a role more appropriate for a hiring practices appeal or
her VEOA and EEO actions. Hearing CD.

App. 32
NOTICE TO APPELLANT
This initial decision will become final on August
31. 2018. unless a petition for review is filed by that
date. This is an important date because it is usually
the last day on which you can file a petition for review
with the Board. However, if you prove that you received
this initial decision more than 5 days after the date of
issuance, you may file a petition for review within 30
days after the date you actually receive the initial de­
cision. If you are represented, the 30- day period begins
to run upon either your receipt of the initial decision
or its receipt by your representative, whichever comes
first. You must establish the date on which you or your
representative received it. The date on which the ini­
tial decision becomes final also controls when you can
file a petition for review with one of the authorities dis­
cussed in the “Notice of Appeal Rights” section, below.
The paragraphs that follow tell you how and when to
file with the Board or one of those authorities. These
instructions are important because if you wish to file a
petition, you must file it within the proper time period.
BOARD REVIEW
You may request Board review of this initial deci­
sion by filing a petition for review.
If the other party has already filed a timely peti­
tion for review, you may file a cross petition for review.
Your petition or cross petition for review must state
your objections to the initial decision, supported by

App. 33
references to applicable laws, regulations, and the rec­
ord. You must file it with:
The Clerk of the Board
Merit Systems Protection Board
1615 M Street, NW.
Washington, DC 20419
A petition or cross petition for review may be filed by
mail, facsimile (fax), personal or commercial delivery,
or electronic filing. A petition submitted by electronic
filing must comply with the requirements of 5 C.F.R.
§ 1201.14, and may only be accomplished at the
Board’s e-Appeal website (https://e-appeal.mspb.gov).
NOTICE OF LACK OF QUORUM
The Merit Systems Protection Board ordinarily is
composed of three members, 5 U.S.C. § 1201, but cur­
rently only one member is in place. Because a majority
vote of the Board is required to decide a case, see 5
C.F.R. § 1200.3(a), (e), the Board is unable to issue de­
cisions on petitions for review filed with it at this time.
See 5 U.S.C. § 1203. Thus, while parties may continue
to file petitions for review during this period, no deci­
sions will be issued until at least one additional mem­
ber is appointed by the President and confirmed by the
Senate. The lack of a quorum does not serve to extend
the time limit for filing a petition or cross petition. Any
party who files such a petition must comply with the
time limits specified herein.

App. 34
For alternative review options, please consult the
section below titled “Notice of Appeal Rights,” which
sets forth other review options.
Criteria for Granting a Petition or
Cross Petition for Review
Pursuant to 5 C.F.R. § 1201.115, the Board nor­
mally will consider only issues raised in a timely filed
petition or cross petition for review. Situations in
which the Board may grant a petition or cross petition
for review include, but are not limited to, a showing
that:
(a) The initial decision contains erroneous find­
ings of material fact. (1) Any alleged factual error must
be material, meaning of sufficient weight to warrant
an outcome different from that of the initial decision.
(2) A petitioner who alleges that the judge made erro­
neous findings of material fact must explain why the
challenged factual determination is incorrect and iden­
tify specific evidence in the record that demonstrates
the error. In reviewing a claim of an erroneous finding
of fact, the Board will give deference to an administra­
tive judge’s credibility determinations when they are
based, explicitly or implicitly, on the observation of the
demeanor of witnesses testifying at a hearing.
(b) The initial decision is based on an erroneous
interpretation of statute or regulation or the erroneous
application of the law to the facts of the case. The peti­
tioner must explain how the error affected the outcome
of the case.

App. 35
(c) The judge’s rulings during either the course
of the appeal or the initial decision were not consistent
with required procedures or involved an abuse of dis­
cretion, and the resulting error affected the outcome of
the case.
(d) New and material evidence or legal argument
is available that, despite the petitioner’s due diligence,
was not available when the record closed. To constitute
new evidence, the information contained in the docu­
ments, not just the documents themselves, must have
been unavailable despite due diligence when the rec­
ord closed.
As stated in 5 C.F.R. § 1201.114(h), a petition for
review, a cross petition for review, or a response to a
petition for review, whether computer generated,
typed, or handwritten, is limited to 30 pages or 7500
words, whichever is less. A reply to a response to a pe­
tition for review is limited to 15 pages or 3750 words,
whichever is less. Computer generated and typed
pleadings must use no less than 12 point typeface and
1-inch margins and must be double spaced and only
use one side of a page. The length limitation is exclu­
sive of any table of contents, table of authorities, at­
tachments, and certificate of service. A request for
leave to file a pleading that exceeds the limitations pre­
scribed in this paragraph must be received by the
Clerk of the Board at least 3 days before the filing
deadline. Such requests must give the reasons for a
waiver as well as the desired length of the pleading
and are granted only in exceptional circumstances. The
page and word limits set forth above are maximum

App. 36
limits. Parties are not expected or required to submit
pleadings of the maximum length. Typically, a wellwritten petition for review is between 5 and 10 pages
long.
If you file a petition or cross petition for review, the
Board will obtain the record in your case from the ad­
ministrative judge and you should not submit any­
thing to the Board that is already part of the record.
A petition for review must be filed with the Clerk of
the Board no later than the date this initial decision
becomes final, or if this initial decision is received by
you or your representative more than 5 days after the
date of issuance, 30 days after the date you or your
representative actually received the initial decision,
whichever was first. If you claim that you and your rep­
resentative both received this decision more than 5
days after its issuance, you have the burden to prove
to the Board the earlier date of receipt. You must also
show that any delay in receiving the initial decision
was not due to the deliberate evasion of receipt. You
may meet your burden by filing evidence and argu­
ment, sworn or under penalty of perjury (see 5 C.F.R.
Part 1201, Appendix 4) to support your claim. The date
of filing by mail is determined by the postmark date.
The date of filing by fax or by electronic filing is the
date of submission. The date of filing by personal de­
livery is the date on which the Board receives the doc­
ument. The date of filing by commercial delivery is
the date the document was delivered to the commercial
delivery service. Your petition may be rejected and re­
turned to you if you fail to provide a statement of how

App. 37
you served your petition on the other party. See 5 C.F.R.
§ 1201.4(j). If the petition is filed electronically, the
online process itself will serve the petition on other
e-filers. See 5 C.F.R. § 1201.14(j)(l).
A cross petition for review must be filed within 25
days after the date of service of the petition for review.
NOTICE TO AGENCY/INTERVENOR
The agency or intervenor may file a petition for re­
view of this initial decision in accordance with the
Board’s regulations.
NOTICE OF APPEAL RIGHTS
You may obtain review of this initial decision only
after it becomes final, as explained in the “Notice to
Appellant” section above. 5 U.S.C. § 7703(a)(1). By stat­
ute, the nature of your claims determines the time
limit for seeking such review and the appropriate fo­
rum with which to file. 5 U.S.C. § 7703(b). Although we
offer the following summary of available appeal rights,
the Merit Systems Protection Board does not provide
legal advice on which option is most appropriate for
your situation and the rights described below do not
represent a statement of how courts will rule regard­
ing which cases fall within their jurisdiction. If you
wish to seek review of this decision when it becomes
final, you should immediately review the law applica­
ble to your claims and carefully follow all filing time
limits and requirements. Failure to file within the

App. 38
applicable time limit may result in the dismissal of
your case by your chosen forum.
Please read carefully the two main possible
choices of review below to decide which one applies to
your particular case. If you have questions about
whether a particular forum is the appropriate one to
review your case, you should contact that forum for
more information.
(1) Judicial review in general. As a general
rule, an appellant seeking judicial review of a final
Board order must file a petition for review with the
U.S. Court of Appeals for the Federal Circuit, which
must be received by the court within 60 calendar
days of the date this decision becomes final. 5 U.S.C.
§ 7703(b)(1)(A).14
If you submit a petition for review to the U.S.
Court of Appeals for the Federal Circuit, you must sub­
mit your petition to the court at the following address:
U.S. Court of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, D.C. 20439

14 A provision of the Whistleblower Protection Enhancement
Act (WPEA) of 2012 provided for judicial review of MSPB deci­
sions in whistleblower reprisal cases in circuit courts of appeal
other than the United States Court of Appeals for the Federal
Circuit. That authority expired on December 27, 2017, which
means that requests for judicial review of MSPB decisions in
whistleblower reprisal cases filed after that date must now be
filed with the Federal Circuit.

App. 39
Additional information about the U.S. Court of
Appeals for the Federal Circuit is available at the
court’s website, www.cafc.uscourts.gov. Of particular
relevance is the court’s “Guide for Pro Se Petitioners
and Appellants,” which is contained within the court’s
Rules of Practice, and Forms 5, 6,10, and 11.
If you are interested in securing pro bono repre­
sentation for an appeal to the U.S. Court of Appeals for
the Federal Circuit, you may visit our website at
http://www.mspb.gov/probono for information regard­
ing pro bono representation for Merit Systems Protec­
tion Board appellants before the Federal Circuit. The
Board neither endorses the services provided by any
attorney nor warrants that any attorney will accept
representation in a given case.
(2) Judicial or EEOC review of cases involv­
ing a claim of discrimination. This option applies
to you only if you have claimed that you were affected
by an action that is appealable to the Board and that
such action was based, in whole or in part, on unlawful
discrimination. If so, you may obtain judicial review of
this decision—including a disposition of vour discrimi­
nation claims—by filing a civil action with an appro­
priate U.S. district court (not the U.S. Court of Appeals
for the Federal Circuit), within 30 calendar days af­
ter this decision becomes final under the rules set out
in the Notice to Appellant section, above. 5 U.S.C.
§ 7703(b)(2); see Perry v. Merit Systems Protection
, 137 S. Ct. 1975 (2017). If the acBoard, 582 U.S.
tion involves a claim of discrimination based on race,

App. 40
color, religion, sex, national origin, or a disabling con­
dition, you may be entitled to representation by a
court-appointed lawyer and to waiver of any require­
ment of prepayment of fees, costs, or other security.
See 42 U.S.C. § 2000e-5(f) and 29 U.S.C. § 794a.
Contact information for U.S. district courts can be
found at their respective websites, which can be ac­
cessed through the link below:
httpyAvww.uscourts.gov/Court Locator/CourtWebsites.
Alternatively, you may request review by the
Equal Employment Opportunity Commission (EEOC)
of your discrimination claims only, excluding all other
issues. 5 U.S.C. § 7702(b)(1). You must file any such re­
quest with the EEOC’s Office of Federal Operations
within 30 calendar days after this decision becomes
final as explained above. 5 U.S.C. § 7702(b)(1).
If you submit a request for review to the EEOC by
regular U.S. mail, the address of the EEOC is:
Office of Federal Operations
Equal Employment Opportunity Commission
P.O. Box 77960
Washington, D.C. 20013

App. 41
If you submit a request for review to the EEOC via
commercial delivery or by a method requiring a signa­
ture, it must be addressed to:
Office of Federal Operations
Equal Employment Opportunity Commission
131 M Street, N.E.
Suite 5SW12G
Washington, D.C. 20507

App. 42
Note: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
LIBBY A. DEMERY,
Petitioner
v.
DEPARTMENT OF THE ARMY,
Respondent
2019-2282
Petition for review of the Merit Systems Protec­
tion Board in No. PH-1221-18-0105-W-1.
ON MOTION
Before Chen, Schall, and Hughes, Circuit Judges.
Per Curiam.
ORDER
(Filed Jul. 16, 2020)
Before the court is Libby A. Demery’s motion to
“petition to recall of court decision and/or issue a stay
[of] the mandate,” which the court construes as a mo­
tion to recall the July 8, 2020 mandate and vacate the
April 9, 2020 decision affirming the judgment of the

App. 43
Merit Systems Protection Board. Demery v. Dep’t of
Army, 809 F. App’x 892 (Fed. Cir. 2020).
The law governing the recall of a mandate in these
circumstances is well settled. Although we have inher­
ent authority to recall our mandate, that power “can be
exercised only in extraordinary circumstances,” and
only as a “last resort, to be held in reserve against
grave unforeseen contingencies.” Calderon v. Thomp­
son, 523 U.S. 538, 550 (1998) (citation omitted). Under
this standard, Ms. Demery has not shown that recall
of the mandate is appropriate here.
Because this case is now over in this court, any fu­
ture filing by Ms. Demery in this case will not be acted
upon by the court.
Accordingly,
It Is Ordered That:
The motion is denied.
For the Court
July 16. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 44
Note: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
LIBBY A. DEMERY,
Petitioner
v.
DEPARTMENT OF THE ARMY,
Respondent
2019-2282
Petition for review of the Merit Systems Protec­
tion Board in No. PH-1221-18-0105-W-1.

ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Filed July 1, 2020
Before Prost, Chief Judge, Newman, Lourie, Schall*,
Dyk, Moore, O’Malley, Reyna, Wallach, Taranto,
Chen, Hughes, and Stoll, Circuit Judges.
Per Curiam.

* Circuit Judge Schall participated only in the decision on
the petition for panel rehearing.

App. 45
ORDER
Petitioner Libby A. Demery filed a combined peti­
tion for panel rehearing and rehearing en banc. The
petition was referred to the panel that heard the ap­
peal, and thereafter the petition for rehearing en banc
was referred to the circuit judges who are in regular
active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on July 8,
2020.

For the Court
July 1. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

